Merck v. State, 298 So.3d 1120 (2020)
45 Fla. L. Weekly S215

298 So.3d 1120
Supreme Court of Florida.
Troy MERCK, Jr., Appellant,
v.
STATE of Florida, Appellee.
No. SC19-1864
|
July 9, 2020
Synopsis
Background: Successive postconviction motion was filed
following affirmance of conviction for first-degree murder,
664 So.2d 939. The Circuit Court, 6th Judicial Circuit,
Pinellas County, Nancy Moate Ley, J., summarily dismissed
motion. Movant appealed.

[Holding:] The Supreme Court held that attorney's decision
to advance intoxication theory despite claim of actual
innocence did not entitle movant to relief.

An Appeal from the Circuit Court in and for
Pinellas County, Nancy Moate Ley, Judge - Case No.
521991CF016659XXXXNO
Attorneys and Law Firms
Linda McDermott of McClain & McDermott, P.A., Estero,
Florida, for Appellant
Ashley Moody, Attorney General, Tallahassee, Florida, and
Stephen D. Ake, Senior Assistant Attorney General, Tampa,
Florida, for Appellee
Opinion
PER CURIAM.
Troy Merck, Jr., appeals the circuit court's order summarily
dismissing his successive postconviction motion filed
pursuant to Florida Rule of Criminal Procedure 3.851. We
have jurisdiction. See art. V, § 3(b)(1), Fla. Const. For the
reasons below, we affirm.

Affirmed.
Procedural Posture(s): Post-Conviction Review.
West Headnotes (2)
[1]

Criminal Law

Review De Novo

Review of summary dismissal of motion for
postconviction relief is de novo. Fla. R. Crim. P.
3.851.

[2]

Criminal Law

Admissions or concessions

Attorney's decision to advance intoxication
theory despite claim of actual innocence did
not entitle movant to relief from conviction
for first-degree murder; Supreme Court had
previously held that attorney did not admit
guilt in advancing the intoxication theory, and
record thus conclusively refuted allegation of
ineffective assistance of counsel. U.S. Const.
Amend. 6.

BACKGROUND
In 1993, Merck was convicted of the first-degree murder of
James Newton and sentenced to death. Merck v. State (Merck
I), 664 So. 2d 939, 940 (Fla. 1995). We affirmed Merck's
conviction on direct appeal but remanded for resentencing
at a new penalty phase. Merck I, 664 So. 2d at 944. Upon
resentencing in 1997, Merck was again sentenced to death.
Merck v. State (Merck II), 763 So. 2d 295, 296 (Fla. 2000).
However, we again remanded for a new penalty phase and
resentencing on direct appeal from the resentencing. Id. At
Merck's third penalty phase in 2004, he was sentenced to
death, and this Court affirmed. Merck v. State (Merck III),
975 So. 2d 1054, 1058-59 (Fla. 2007), cert. denied, Merck
v. Florida, 555 U.S. 840, 129 S.Ct. 73, 172 L.Ed.2d 66
(2008). We have since affirmed the denial of Merck's initial
motion for postconviction relief and denied his accompanying
petition for writ of habeas corpus. Merck v. State (Merck IV),
124 So. 3d 785, 790 (Fla. 2013).
Most recently, we have affirmed the denial of Merck's
first successive motion for postconviction relief. Merck v.
State (Merck V), 260 So. 3d 184, 188 (Fla. 2018). While

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

1

Merck v. State, 298 So.3d 1120 (2020)
45 Fla. L. Weekly S215

Merck V was pending, Merck filed his second successive
postconviction motion seeking relief from his sentence of
*1121 death pursuant to

Hurst v. Florida, ––– U.S. ––––,

136 S. Ct. 616, 193 L.Ed.2d 504 (2016), and
Hurst v.
State, 202 So. 3d 40 (Fla. 2016), receded from in part by
State v. Poole, 45 Fla. L. Weekly S41, ––– So.3d ––––,
2020 WL 3116597 (Fla. Jan. 23, 2020), clarified, 45 Fla. L.
Weekly S121, ––– So.3d ––––, 2020 WL 3116598 (Fla. Apr.
2, 2020), which the circuit court granted in 2017. Although the
State initially appealed the circuit court's order, it voluntarily
dismissed the appeal. Accordingly, this Court never reviewed
the propriety of that order, which is now final. However,
in Merck V, we held that the fact that Merck is awaiting
resentencing does not deprive this Court of jurisdiction over
postconviction challenges to Merck's “capital conviction for
which a sentence of death was imposed.” Merck V, 260 So.
3d at 188 & n.1.

[1]
[2] We review the summary dismissal de novo, see
Dailey v. State, 279 So. 3d 1208, 1215 (Fla. 2019), and
affirm because the record conclusively refutes Merck's
allegation that trial counsel conceded Merck's guilt at trial.
Trial counsel's concession of the defendant's guilt is central
to
McCoy. See
McCoy, 138 S. Ct. at 1507, 1509
(addressing the issue of “whether it is unconstitutional to
allow defense counsel to concede guilt over the defendant's
intransigent and unambiguous objection” and holding that if a
defendant “expressly asserts that the objective of ‘his defence’
is to maintain innocence of the charged criminal acts, his
lawyer must abide by that objective and may not override
it by conceding guilt” (quoting U.S. Const. amend. VI)). In
Merck's case, as we have previously held, trial counsel “never
admitted Merck's guilt in advancing the intoxication theory.”
Merck IV, 124 So. 3d at 794. Because the record conclusively
establishes that Merck is not entitled to relief, we affirm the
circuit court's order.

At issue in this appeal is Merck's third successive motion
for postconviction relief, which he filed on May 10,
2019. In that motion, Merck argued that his conviction
violates the Sixth Amendment pursuant to the United States

It is therefore unnecessary to address the circuit court's ruling
that Merck's motion was untimely under rule 3.851(d)(2)(B).

Supreme Court's decision in McCoy v. Louisiana, ––– U.S.
––––, 138 S. Ct. 1500, 200 L.Ed.2d 821 (2018), because
his appointed trial counsel refused to abide by Merck's
asserted objective of defense—actual innocence—and instead
conceded Merck's guilt at trial by arguing the defense of

CONCLUSION

voluntary intoxication. 1 The circuit court dismissed Merck's
claim as untimely under rule 3.851(d)(2)(B) and in so doing
stated that “even if Merck's motion was timely filed, it likely
would have been denied as without merit.”

ANALYSIS

For the foregoing reasons, we affirm the circuit court's order
dismissing Merck's successive postconviction motion.
It is so ordered.

CANADY, C.J., and POLSTON, LABARGA, LAWSON,
MUÑIZ, and COURIEL, JJ., concur.
All Citations
298 So.3d 1120, 45 Fla. L. Weekly S215

Footnotes
1

At the time of Merck's trial, voluntary intoxication was a defense to specific-intent crimes. See
Gardner v.
State, 480 So. 2d 91, 92 (Fla. 1985). The Legislature has since abrogated this defense. § 775.051, Fla. Stat.
(2019); ch. 99-174, § 1, Laws of Fla. (creating section 775.051, effective October 1, 1999).

End of Document

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

2

